APPENDICES

• /

App. 1
APPENDIX A
S.D.N.Y.-N.Y.C.
13-cr-155
13-cv-5433
Stein, J.
United States Court of Appeals
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shall United States Courthouse, 40 Foley Square, in
the City of New York, on the 4th day of September, two
thousand nineteen.
Present:
John M. Walker, Jr.,
Raymond J. Lohier, Jr.,
Susan L. Carney,
Circuit Judges.
Charles Huggins,
Petitioner-Appellant,
19-817

v.
United States of America,
Respondent Appellee.

Appellant moves for a certificate of appealability. Upon
due consideration, it is hereby ORDERED that the

App. 2
motion is DENIED and the appeal is DISMISSED be­
cause Appellant has not made a “substantial showing
of the denial of a constitutional right.” 28 U.S.C.
§ 2253(e); see also Miller-El v. Cockrell, 537 U.S. 322,
327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 3
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
UNITED STATES
OF AMERICA,
-againstCHARLES HUGGINS,

13-Cr-155 (SHS)
18-Cv-5433 (SHS)
OPINION & ORDER
(Filed Feb. 20, 2019)

Defendant.
SIDNEY H. STEIN, U.S. District Judge.
Petitioner Charles Huggins brings this petition
pursuant to 28 U.S.C. § 2255 to vacate his sentence of
120 months’ imprisonment on the grounds that he was
denied effective assistance counsel during plea negoti­
ations and at trial. For the reasons set forth below, pe­
titioner’s motion is denied.
As a preliminary matter, the government contends
that petitioner has waived his claims of ineffective as­
sistance of counsel by not raising them on direct ap­
peal. This argument simply ignores a United States
Supreme Court case directly refuting it. In Massaro u.
United States, the Supreme Court held that “an
ineffective-assistance-of-counsel claim may be brought
in a collateral proceeding under § 2255, whether or not
the petitioner could have raised the claim on direct ap­
peal.” 538 U.S. 500, 504 (2003). Massaro noted that in
most cases, it is actually preferable to decide a claim of
ineffective assistance on a petition brought under

App. 4
Section 2255, a position to which the U.S. Court of
Appeals for the Second Circuit has consistently sub­
scribed. Indeed, on the appeal from Huggins’s convic­
tion, the Second Circuit affirmed his conviction and
remanded the case to the district court for resentenc­
ing without certain guidelines enhancements. United
States v. Huggins, 844 F.3d 118 (2d Cir. 2016). At the
same time, citing its “baseline aversion to resolving in­
effectiveness claims on direct review,” United States v.
Huggins, 666 F. App’x 88, 91 (2d Cir. 2016) (internal
citations omitted), it “decline[d] to address” Huggins’s
claims of ineffective assistance of his sentencing coun­
sel and stated that “the ‘preferable’ mechanism ‘for de­
ciding claims of ineffective assistance’ was to “seek
relief under 28 U.S.C. § 2255.” Id. (quoting Massaro,
538 U.S. at 504). Thus, Huggins has not waived the
claims he asserts in this petition.
I.

BACKGROUND
A. Conviction, Appeal, and Sentence

After a two-week jury trial presided over by this
Court, Huggins was convicted in October 2014 of wire
fraud and conspiracy to commit wire fraud in violation
of 18 U.S.C. §§ 1343 and 1349. At trial, it was estab­
lished that Huggins ran a fraudulent scheme where he
took money from victims under the pretense of using
those funds to invest in various purported ventures, in­
cluding diamond mining in Liberia and Sierra Leone,
but instead used the money to fund a lavish lifestyle

App. 5
for himself. Huggins’s lead counsel - both prior to and
during trial - was Brian Blaney, Esq.
On May 13, 2015, Huggins was sentenced to 120
months’ imprisonment and three years’ supervised re­
lease. The Second Circuit affirmed his conviction on
appeal but remanded the sentence. United States v.
Huggins, 666 F. App’x 88 (2d Cir. 2016); United States
u. Huggins, 844 F.3d 118 (2d Cir. 2016). Upon resen­
tencing on June 15, 2017, Huggins was sentenced to
100 months’ imprisonment together with three years’
supervised release. He is currently serving that sen­
tence.
B. Huggins’s Allegations of Ineffective As­
sistance of Counsel
Huggins’s claims of ineffective assistance of coun­
sel fall under two general categories: (1) Blaney’s al­
leged ineffectiveness during plea discussions and (2)
Blaney’s alleged ineffective performance at trial.
Huggins’s claims of ineffectiveness during plea
discussions are summarized in two letters he wrote to
the Court around the time of his resentencing in June
2017. In a letter dated June 11, 2017, Huggins wrote:
The Government extended me a plea offer
prior to trial. I could have long since put the
matter behind me, had I accepted the offer.
However, my attorney (at the time he in­
formed me of the offer) refused to even discuss
the offer in detail, stating that I would have to
find another attorney to represent me if I was

App. 6
considering a plea . . . Had I known that I
could end up with the ten year sentence I ul­
timately received, I would not have allowed
my attorney to convince me to proceed to trial.
Instead, I would have rejected his advice and
resolved this matter without a trial.
(Pet’r’s Mot., Ex. C.)1 On June 26, 2017, referring back
to his letter of June 11, he wrote:
Defendant informed the Court that the Gov­
ernment had extended a considerably favora­
ble plea offer (with a stipulated sentencing
range of 18 to 24 months’ imprisonment)
which counsel failed to discuss with him. De­
fendant informed the Court that former coun­
sel [i.e., Blaney] stated that he would remove
himself from the case if Defendant considered
disposing of the case by any means other
than a trial. Counsel never disclosed the
1 Huggins’s attorney at his resentencing, Jonathan Savella,
Esq., explicitly repudiated this letter by saying it was not in fact
written by Huggins and was sent without his authority to the
Court as follows:
I did get in to see [Huggins] yesterday and he tells me
that he did not intend for this letter to be sent to the
Court. It was written by somebody that was in his unit,
a jail house lawyer, if you will, who he was talking to
in the unit who said or apparently told him that he
could get points off his guidelines for failing to take or
for poor advice with regard to plea bargaining . . . So,
this letter, well to put it simply, we repudiate it and,
again, my understanding is that he believed that the
jailhouse lawyer was going to send it to me for my re­
view but, instead, this individual opted to send it di­
rectly to the Court.
(Resentencing Tr., 8.)

App. 7
particulars of the plea offer, and advised De­
fendant that the Government’s evidence es­
tablished his actual innocence—not guilt. It
only became apparent to defendant after trial
that [trial counsel’s advice] and misconduct
was motivated by his counsel’s desire to col­
lect substantial fees that he would be entitled
to only by virtue of a jury trial. Defendant in­
formed the court that, but for counsel’s unpro­
fessional behavior, he would have accepted
the Government’s plea offer and would long
since have been released from prison.
(Pet’r’s Mot., Ex. D.) In his affidavit dated June 8,2018,
filed as part of this motion, Huggins states that Blaney
told him “that he didn’t want me pleading guilty, and
that if I sought to, he would ‘quit.’ ” (Pet’r’s Mot., Ex. A.)
On counsel’s alleged ineffectiveness at trial, Hug­
gins bemoans that his attorney was constrained to a
wheelchair and asserts a veritable grab bag of griev­
ances. Specifically, he claims Blaney (1) was “unprepared
to commence cross-examination because documents
[were] not in the courtroom,” (2) “ask[ed] objectionable,
barely comprehensible questions,” was “inaudible and
unintelligible” and “paus[ed] for significant periods of
time between questions while looking for documents,”
(3) attempted “to adduce inadmissible hearsay” and in­
troduce inadmissible exhibits, (4) “repeatedly fail[ed]
to turn over . . . discovery materials” and other defense
disclosures to the government, (5) “buil[t] a defense
trial strategy in reliance upon unobtainable or inad­
missible, irrelevant, consuming, and misleading char­
acter, substantive, and expert witness testimony,” (6)

App. 8
made “false statements to the court regarding commu­
nications with a witness and scheduling,” (7) “fail[ed]
to secure the deposition testimony of a defense witness
while they were in the United States,” and (8) “conduct[ed] a self-described ‘inadequate’ summation.” (Pet’r’s
Mem. at 2, 5-6,13-14.)
Petitioner requests that his sentence be vacated as
a result.
II.

DISCUSSION

To establish ineffective assistance of counsel, Hug­
gins must show (1) that his attorney’s representation
fell below “an objective standard of reasonableness”
under “prevailing professional norms” and (2) that he
was prejudiced as a result of the allegedly defective
conduct. Strickland v. Washington, 466 U.S. 668, 68788, 693 (1984).
A. Huggins’s argument that Blaney was in­
effective in plea discussions fails because
petitioner has not suffered prejudice.
To establish prejudice, Huggins must show “a rea­
sonable probability that, but for counsel’s unprofes­
sional errors, the result of the proceeding would have
been different.” Id. at 694. With respect to sentencing,
“the defendant must show a reasonable probability
that, but for counsel’s substandard performance, he
would have received a less severe sentence.” Gonzalez
v. United States, 722 F.3d 118,130 (2d Cir. 2013). “Even

App. 9

/

a petitioner who establishes that his attorney has
failed to convey a plea offer must still prove prejudice
to successfully raise an ineffective assistance of coun­
sel claim.” Melo u. United States, 825 F. Supp. 2d 457,
462 (S.D.N.Y. 2011) (citing Pham v. United States, 317
F.3d 178, 182 (2d Cir.2003)). The Supreme Court has
advised that “[t]he object of an ineffectiveness claim is
not to grade counsel’s performance. If it is easier to dis­
pose of an ineffectiveness claim on the ground of lack
of sufficient prejudice, which we expect will often be so,
that course should be followed.” Strickland, 466 U.S. at
697. The Court will indeed follow the Supreme Court’s
lead.
The plea offered to Huggins by the government,
dated and sent to Brian Blaney on August 19, 2014,
consisted of a stipulated guidelines range of 97 to 121
months’ imprisonment. (Resp’t’s Mem. in Opp’n, Ex. A.)
The defendant was ultimately sentenced to 100-months’
imprisonment. Therefore, even assuming arguendo
counsel’s performance during plea discussions was
subpar — and the Court is not reaching the issue there is no “reasonable probability that, but for coun­
sel’s substandard performance, he would have received
a less severe sentence.” Gonzalez, 722 F.3d at 130.
Courts in this District have found even sentencing dis­
parities of two to three years between a rejected or hy­
pothetical plea deal and the Section 2255 petitioner’s
actual sentence to be non-prejudicial in the Strickland
context. See, e.g., Alkhabhaz v. United States, No. 12
CIV. 4801 LAP, 2014 WL 7190874, at *6 (S.D.N.Y.
Dec. 5, 2014) (finding a 34-month difference to be

App. 10
non-prejudicial and collecting cases from this District).
Here, there is no meaningful disparity whatsoever.2
The government and petitioner both state in their
briefs that the August 19, 2014 offer was the only offer
issued by the government to Huggins. (See Resp’t’s
Mem. in Opp’n, at 33 (“[t]his was the only plea offer
issued by the Government to Huggins”); Pet’r’s Reply
Mem., at 5 (“the Government’s singular plea agree­
ment called for a non-advisory sentencing Guidelines
range of 97-121 months.”)) Although there is a cursory
mention in Huggins’s June 26, 2017 letter of a plea of­
fer with a stipulated sentencing range of 18 to 24
months’ imprisonment, there is no mention of this offer
in Huggins’s affidavit or in any of Huggins’s attorney’s
submissions on this petition. Even in the context of
statements made under oath, “[i]n most circumstances
a convicted felon’s self-serving testimony is not likely
to be credible.” Purdy v. Zeldes, 337 F.3d 253, 259 (2d
Cir. 2003). Not a smidge of evidence has been provided
suggesting that there was such an offer, and this Court

2 The 100-month sentence is within the guidelines range en­
capsulated in the proposed plea deal, and on the low end of it.
While the very low end of the guidelines range in the plea is 97
months, that is not sufficient to show prejudice. This is easily dis­
tinguishable from Glover v. United States, 531 U.S. 198 (2001),
where the Supreme Court held that an increase in prison sen­
tence of at least 6 months and up to 21 months, if resulting from
a miscalculation in the sentencing guidelines range by defense
counsel, constituted prejudice required for establishing ineffec­
tive assistance of counsel. Here, the sentence is well within the
guidelines range of the proposed plea deal.

App. 11
will accordingly assign no weight to its purported ex­
istence.
B. Huggins’s argument that Blaney was
ineffective at trial fails both prongs of
the Strickland test.
Even when taken all together, the alleged deficien­
cies in counsel’s trial conduct do not amount to “errors
so serious that counsel was not functioning as the
‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Strickland, 466 U.S. at 687. Nor is it the
case that petitioner was prejudiced because “counsel’s
errors were so serious as to deprive the defendant of a
fair trial.” Id.
This Court presided over the trial and cannot say
that Huggins’s attorney provided constitutionally defi­
cient counsel. While the attorney at times entered and
left the courtroom in a wheelchair, he sat in a court­
room chair while at the defense table and stood while
participating in the trial proceedings. In short, he
physically performed his duties as trial counsel for
Huggins. Although Huggins alleges that whatever
physical ailment Blaney suffered from began to deteri­
orate during trial and led to cognitive impairment, (see
Pet’r’s Mem. at 3,) he has provided no evidence for that
assertion and the Court observed none.
In every criminal case counsel’s actions are ac­
corded a “strong presumption” of reasonableness.
Strickland, 466 U.S. at 689. “Even the best criminal de­
fense attorneys would not defend a particular client in

App. 12
the same way.” Id. Ineffective assistance claims “are
quite often the law’s equivalent of ‘buyer’s remorse’ or
‘Monday morning quarterbacking’ . . . [and decisions
by criminal defense counsel are often choices among
bad alternatives that are only rarely shown [to meet
the Strickland standard].” Mui u. United States, 614
F.3d 50, 57 (2d Cir. 2010).
Huggins points to several specific instances of al­
legedly deficient conduct on the part of counsel, as
noted above. Going through those allegations, it is
clear that - both when taken individually as well as
collectively - these contentions do not amount to defi­
cient representation. For example, a single instance of
trial counsel requesting a 10-minute break prior to
commencing a cross-examination (Tr. 462) or the Court
requesting that counsel speak more loudly (Tr. 503)
plainly do not demonstrate ineffectiveness.
When Huggins points to the portion of the trial
transcript where the Court suggests that defense coun­
sel ask questions more rapidly (Tr. 505), he neglects to
point to the paragraph right above it, where the Court
admonished the government for slowing the trial down
by making too many objections (Tr. 504-05).3 Regard­
less, pausing between questions does not constitute in­
effective assistance of counsel. Similarly, a lawyer
asking questions that lead to objections that are
3 Similarly, Huggins also points to counsel putting on the
record that he had apologized to his client for an “inadequate”
summation (Tr. 1459-60), but he neglects to mention that the
Court noted in reply that “all counsel covered the relevant bases
in their summations and in their opening[s]” (Tr. 1460).

App. 13
sustained, whether on hearsay or other grounds (Tr.
494, 499, 538, 568, 719, 1126), is par for the course at
trial.
While it is true that the Court rebuked trial coun­
sel for failing to turn over materials such as witness
and exhibit lists until the trial-day before the defense
would commence its case (Tr. 717-19), that does not
suffice to show that counsel provided ineffective assis­
tance to Huggins. If anything, the government would
have been the party inconvenienced by such delay.
Huggins notes several occasions where trial
counsel attempted to call a witness but was ultimately
prevented from doing so either because the Court pre­
cluded the testimony as irrelevant or the proposed wit­
ness communicated through his lawyer that he
intended to assert his Fifth Amendment right not to
testify (Tr. 969, 1039-41, 1272-73). This also does not
rise to ineffective assistance of counsel. Even if the
Court had not precluded any testimony, “[a] failure to
call a witness for tactical reasons of trial strategy does
not satisfy the standard for ineffective assistance of
counsel.” United States v. Eyman, 313 F.3d 741, 743 (2d
Cir. 2002) (citing United States v. Luciano, 158 F.3d
655, 660 (2d Cir. 1998)). The same reasoning applies to
counsel’s failure to take a defense witness’s deposition
abroad based on a reliance on that witness’s assertion
that he would be available to testify at trial (Tr. 120910). “[I]n case after case, we have declined to deem
counsel ineffective notwithstanding a course of
action (or inaction) that seems risky, unorthodox or

App. 14
downright ill-advised.” Tippins v. Walker, 77 F.3d 682,
686 (2d Cir. 1996).
The complained-of conduct, even collectively, does
not overcome the strong presumption that trial coun­
sel acted reasonably in the moment. To hold otherwise
would be impermissible “Monday morning quarterbacking.” Mai, 614 F.3d at 57.
Petitioner’s claim of ineffective assistance at trial
also cannot satisfy the second prong of the Strickland
test because he was not prejudiced as a result of his
counsel’s conduct. Not only was his counsel’s conduct
within the realm of reasonableness, as set forth above,
but the evidence against Huggins was substantial even overwhelming - and included trial testimony
from numerous victims and a co-conspirator as well as
extensive documentary evidence authored by Hugging
himself. In sum, there was no “reasonable probability
that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Strick­
land, 466 U.S. at 694.
C. Huggins is not entitled to an eviden­
tiary hearing.
A petitioner is entitled to an evidentiary hearing
on his Section 2255 motion “[u]nless the motion and
the files and records of the case conclusively show that
the prisoner is entitled to no relief.” 28 U.S.C. § 2255(b).
A hearing is warranted if the motion “set[s] forth spe­
cific facts supported by competent evidence, raising de­
tailed and controverted issues of fact that, if proved at

App. 15
a hearing, would entitle him to relief.” Gonzalez, 722
F.3d at 131. Section 2255 “does not imply that there
must be a hearing where the allegations are ‘vague,
conclusory, or palpably incredible.’ ” Id. at 130-31.
Huggins is not entitled to an evidentiary hearing
here because even if all of his allegations are true, he
has not made out a plausible claim of ineffective assis­
tance of counsel under Strickland. As set forth above,
he has not suffered prejudice from any hypothetical in­
effective assistance of counsel during plea discussions,
and he has failed to demonstrate the ability to estab­
lish a “prima facie case for relief,” Puglisi v. United
States, 586 F.3d 209, 213 (2d Cir. 2009), under Strick­
land for his assertions of ineffective assistance of coun­
sel at trial. There are simply no “controverted issues of
fact that, if proved at a hearing, would entitle him to
relief.” Gonzalez, 722 F.3d at 131. Huggins’s request for
an evidentiary hearing is therefore denied.
III. CONCLUSION
For the reasons set forth above, Huggins’s petition
is denied. Because Huggins has not made a substantial
showing of the denial of a constitutional right, a certif­
icate of appealability will not issue. 28 U.S.C.
§ 2253(c)(2); Lucidore v. N.Y. State Div. of Parole, 209
F.3d 107, 111-13 (2d Cir. 2000). Pursuant to 28 U.S.C.
§ 1915(a)(3), the Court certifies that any appeal from

App. 16
this Order would not be taken in good faith. See
Coppedge v. United States, 369 U.S. 438,445-46 (1962).
Dated: New York, New York
February 20, 2019
SO ORDERED:
/s/ Sidney H. Stein
Sidney H. Stein, U.S.D.J.

App. 17
APPENDIX C
15-1676
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
CHARLES HUGGINS,
Defendant-Appellant.
MOTION BY ATTORNEYS DOUGLAS T.
BURNS & RANDY ZELIN PURSUANT TO
LOCAL RULE 4.1(d) OF THE LOCAL
RULES AND INTERNAL OPERATING
PROCEDURES FOR THE SECOND CIRCUIT
TO WITHDRAW AS COUNSEL FOR
DEFENDANT-APPELLANT CHARLES HUGGINS
On Appeal From the United States District
Court For the Southern District of New York
Case no. l:13-cr-00155 (SHS)
DOUGLAS T. BURNS, ESQ.
110 E. 59th St., 22nd FI.
New York, N.Y. 10022
Telephone: (212) 685-2500
Facsimile: (646) 349-5640

App. 18
RANDY SCOTT ZELIN P.C.
RANDY ZELIN
110 E. 596 St., 22nd FI.
New York, N.Y. 10022
Telephone: (212) 935-1600
Facsimile: (914) 462-4549
ATTORNEYS FOR DEFENDANT-APPELLANT
CHARLES HUGGINS
MOTION BY ATTORNEYS DOUGLAS T. BURNS
& RANDY ZELIN PURSUANT TO LOCAL
RULE 4.1(d) OF THE LOCAL RULES AND
INTERNAL OPERATING PROCEDURES
FOR THE SECOND CIRCUIT TO WITHDRAW
AS COUNSEL FOR DEFENDANT-APPELLANT
CHARLES HUGGINS
Pursuant to Federal Rules of Appellate Procedure
(“FRAP”) 27 and Local Rule 27.1 of the Local Rules and
Internal Operating Procedures for the Second Circuit
(“Local Rules” or “Local Rule
.”) Douglas T. Burns,
Esq. and Randy Zelin, Esq. (“Burns” and “Zelin” respec­
tively) move for permission to withdraw as counsel for
appellant Charles Huggins (“Mr. Huggins”). Burns and
Zelin move to withdraw pursuant to Local Rule 4.1(d)
because Burns and Zelin are likely to be fact witnesses
on Mr. Huggins’ behalf on appeal or in connection with
a motion pursuant to 28 U.S.C. §2255 with regard to
the effectiveness of Mr. Huggins’ lead trial counsel,
Brian Blaney, Esq. (“Mr. Blaney”). Mr. Blaney was ap­
parently was suffering from one or more debilitating
and perhaps life-threatening illnesses leading up to,
and during the trial which will place his effectiveness

App. 19
as counsel squarely in issue. In fact, Mr. Blaney had no
role in Mr. Huggins’ presentence preparation nor did
Mr. Blaney appear at sentencing for Mr. Huggins, not­
withstanding the fact that Mr. Blaney had not been re­
lieved as counsel by the District Judge. Burns and
Zelin, who were retained on the eve of trial by Mr. Hug­
gins to assist Mr. Blaney at the trial, have been advised
on repeated occasions by Mr. Huggins and his family
both prior to and subsequent to sentencing that they
were going to be substituted out as Mr. Huggins was
retaining new appellate counsel to replace Burns and
Zelin. However, to date, Burns and Zelin have not been
provided with a document or statement pursuant to
Local Rule 4.1(2)(A) that new counsel has been re­
tained or appointed to represent Mr. Huggins - thus
the necessity for this motion. As Burns and Zelin are
likely to be fact witnesses on Mr. Huggins’ behalf,
Burns and Zelin cannot continue as advocates for Mr.
Huggins before this Court.
RELEVANT PRELIMINARY
PROCEDURAL HISTORY
1. Mr. Huggins was sentenced by the United
States District Court for the Southern District of New
York (Stein, J.) on May 13, 2015 principally to 120
months in custody (see Exhibit A, Docket Sheet) upon
Mr. Huggins’ conviction after trial on October 10, 2014
(see Exhibit B, Docket Sheet). Burns and Zelin repre­
sented Mr. Huggins at sentencing, although they were
not lead counsel for Mr. Huggins. Mr. Blaney neither
appeared for Mr. Huggins at sentencing, nor performed

App. 20
any function as Mr. Huggins’ attorney post-trial and
during the pre-sentencing phase.
2. Burns and Zelin timely filed a Notice of Appeal
for Mr. Huggins on May 22,2015 (see Exhibit C, Docket
Sheet, Docket no. 354) so as not to run afoul of Local
Rule 4.1(a). The filing fees in connection with the filing
of the Notice of Appeal were also paid on June 4, 2015
(see Exhibit D, Docket Sheet).
I

RELEVANT FACTUAL HISTORY
REGARDING SUBSTITUTION AS COUNSEL
3. As is more fully set forth in the annexed dec­
larations of Burns and Zelin, they have been repeat­
edly advised that they were being replaced with new
counsel for purposes of all post-sentencing and appel­
late proceedings. Attached as Exhibit E are examples
of email communications reflecting and confirming Mr.
Huggins’ intent to replace Burns and Zelin with new
counsel (redacted to preserve all privileges). Burns and
Zelin held off on filing this motion only because they
were assured that Mr. Huggins was retaining new
counsel and were waiting for the documentation re­
flecting the substitution to accompany this motion.
4. Burns and Zelin have cooperated fully with
Mr. Huggins’ desire to replace them with new counsel
- including, but not limited to having already begun to
turn over their files to Mr. Huggins’ family for Mr. Hug­
gins new counsel pursuant to request (see Exhibit E).

App. 21
COMPLIANCE WITH
LOCAL RULE 4.1(d)(1) & 2
5. Burns and Zelin respectfully submit that they
have done their best to comply with Local Rule
4.1(d)(1) and (2), but exceptional circumstances pre­
vent them from completely complying with Local Rule
4.1(d)(2)(A)-(D).
Advice to Defendant (Local Rule 4.1(d)(1))
a. In response to being advised that they were be­
ing substituted out as Mr. Huggins’ attorneys, Burns
and Zelin have advised Mr. Huggins that he must
promptly obtain new counsel. Mr. Huggins and his
family have repeatedly advised Burns and Zelin that
Mr. Huggins was retaining new counsel (see Exhibit
E).
Content of the Motion
b. With regard to Local Rule 4.1(d)(2)(A), Burns
and Zelin have repeatedly requested written proof that
new counsel has been retained (see Exhibit E).
c. With regard to Local Rule 4.1(d)(2)(B), Burns
and Zelin have repeatedly requested written proof that
new counsel has been retained and that Mr. Huggins
was not seeking the appointment of counsel (see Ex­
hibit E).
d. With regard to Local Rule 4.1(4)(2)(D), Burns
and Zelin have have been repeatedly advised that new

App. 22
counsel was being retained to replace them (see Ex­
hibit E).
6. Burns and Zelin respectfully submit that ex­
ceptional circumstances are in fact extant, which pre­
vent them from completely complying with Local Rule
4.1(d)(2)(A)-D). As is more fully set forth below, Burns
and Zelin are faced with being called as witnesses for
Mr. Huggins in support of his claims of ineffective
counsel against Mr. Blaney - but in the same breath
they will be invariably defending their own effective­
ness. In that backdrop, giving Mr. Huggins any further
advice at this juncture is rife with peril.

THE NEW YORK RULES OF PROFESSIONAL
CONDUCT PRECLUDE BURNS AND
ZELIN FROM CONTINUING AS ADVOCATES
SINCE THEY OUGHT TO BE CALLED
AS WITNESSES BY HUGGINS
7. Mr. Blaney’s effectiveness as Mr. Huggins’ lead
trial counsel is sure to be a centerpiece of Mr. Huggins’
appeal and collateral attack on the trial and sentence.
Rule 3.7(a). Burns and Zelin, whom were retained by
Mr. Huggins on the eve of trial to assist Mr. Blaney at
the trial ought to be called as witnesses by Mr. Huggins
or otherwise provide facts on Mr. Huggins’ behalf as
part of the prosecution of the appeal and collateral at­
tack on the trial and sentence.
8. That being the case, Burns and Zelin cannot
continue on as attorneys for Mr. Huggins, lest they be

App. 23
barred from being offered as fact witnesses for Mr.
Huggins.
9. Rule 3.7(a) of the New York Rules of Pro­
fessional Conduct (“RTC” or “RPC
.”) provides the
statutory authority to warrant Burns’ and Zelin’s with­
drawal as Mr. Huggins’ attorneys because of the “advo­
cate-witness rule,” providing in relevant part
“[a] a lawyer shall not act as an advocate be­
fore a tribunal in a matter in which the lawyer
is likely to be a witness on a significant issue
of fact”
10. Certainly, Burns and Zelin will be putting
their own credibility at issue as to Mr. Blaney’s effec­
tiveness as Mr. Huggins’ lead counsel Murray u. Metro­
politan Life Ins. Co. ,583 F. 3d 173 (2d Cir. 1998). Burns
and Zelin were retained on the eve of trial by Mr. Hug­
gins to assist Mr. Blaney; Burns and Zelin were present
at Mr. Huggins’ trial to assist Mr. Blaney, and Burns
and Zelin essentially were forced to take over Mr. Hug­
gins’ representation in connection with sentencing.
11. If Burns and Zelin continue as Mr. Huggins’
attorneys, Burns and Zelin will be faced with a difficult
and perhaps unresolvable conflict - on the one hand
defending their effectiveness while at the same time
advancing Mr. Huggins’ claims that Mr. Blaney was in­
effective - all in the same trial. Imagine the greater
oddity in Burns and Zelin facing potential crossexamination by the government on the issue of Mr.
Blaney’s effectiveness, as the government will surely

App. 24
be advocating that Mr. Blaney was in fact effective in
his representation of Mr. Huggins.
12. If Burns and Zelin continue as Mr. Huggins’
attorneys, the stage is being set for Burns and Zelin to
find themselves laboring under a potential — if not an
actual conflict of interest. United States u. Williams,
372 F. 3d 96 (2d Cir. 2004). With the headlights of a
conflict of interest coming into view, Burns and Zelin
should be permitted to withdraw as Mr. Huggins’ at­
torney in order to prevent potential further ineffective
assistance of counsel claims by Mr. Huggins against
Burns and Zelin.
CONCLUSION
13. Mr. Huggins’ rights are best served and pro­
tected by the withdrawal of Burns and Zelin as Mr.
Huggins’ attorneys. Burns and Zelin can best serve Mr.
Huggins as his witnesses.
Dated:

July 1, 2015,
Respectfully submitted,
/s/ Douglas Burns
Douglas T. Burns

Randy Zelin
Attorneys for Record for
Defendant-Appellant
Charles Huggins

App. 25
APPENDIX D
Republic of Liberia
MINISTRY OF LANDS,
MINES AND ENERGY
MINERAL CADASTRE INFORMATION
[SEAL]
[SEAL]
MANAGEMENT UNIT
P. 0. BOX 10-9024
1000 MONROVIA 10, LIBERIA
(231) 27224021
To whom it may concern
January 14.2016
Dear Sir/Madam:
REF.: LETTER OF
AFFIRMATION OF EXISTANCE
It is with revered compliments that I write to affirm
the existence of UROGO Liberia Ltd., a registered
Artisanal Mining Cooperative with the Government of
Liberia through the Ministry of Lands, Mines and En­
ergy.
Records at the Mining Cadastre show that the afore­
mentioned Company is in its final stage of renewal of
its 100 Class C Mining Licenses.

App. 26
Accept the assurances of my appreciation while I an­
ticipate any further inquiry. Best regards.
Truly yours,
/s/ [Illegible]
Rudolph M. Topoe
Administrator/MCIMU
Cell No 0886523155

App. 27
APPENDIX E
TRULINCS 68101054 - HUGGINS, CHARLES - Unit:
FTD-V-A
FROM: Huggins, Don
TO: 68101054
SUBJECT: RE: Checking In
DATE: 02/27/2016 07:36:07 PM
Filed: 10/27/2015, Entered: None Court Filing
FINAL ORDER OF FORFEITURE: as to (S3-13-Cr155-01) Charles Huggins. . . . [See this Order] . ..
WHEREAS, on or about April 7,2013, the Government
filed a Bill of Particulars identifying the following
property, among other things, as being subject to for­
feiture as property that constitutes or is derived from
proceeds traceable to the commission of the offenses
described in Counts One and Two of the Indictment: a.
Approximately 1,000 assorted types of diamonds,
seized on or about February 15,2013, from safe deposit
box number 1156, registered to Charles and Melba
Huggins, at Bank of America, 7311 River Road, North
Bergen, NJ (the “Safe Deposit Diamonds”); b. $35,600
in United States currency, seized on or about February
15, 2013, from safe deposit box number 1156, regis­
tered to Charles and Melba Huggins, at Bank of Amer­
ica, 7311 River Road, North Bergen, NJ; and c.
Approximately 30 assorted types of diamonds, seized
on or about February 7, 2013, from Anne Thomas, in
South Cliffside Park, NJ; (a. through c. collectively, the
“Subject Property’); . . . [See this Order] . . .

\

App. 28
WHEREAS, on or about July 10, 2015, Oraco Re­
sources, Inc. (the “Petitioner”) filed a petition asserting
an interest in the Safe Deposit Diamonds; WHEREAS,
on or about August 3,2015, Flawless Trading Corpora­
tion filed a petition alleging interest in the Subject
Property (the “Flawless Petition”); WHEREAS, on or
about September 17, 2015, the Court endorsed a letter
written by counsel for Flawless Trading Corporation
withdrawing the Flawless Petition; WHEREAS, on or
about October 20, 2015, the Court entered a Stipula­
tion and, Order (the “Stipulation”) resolving the peti­
tion filed by Oraco Resources, Inc.;. .. [See this Order]
. . . NOW, THEREFORE, on the application of Preet
Bharara, United States Attorney for the Southern
District of New York, by Jonathan Cohen, Assistant
United States Attorney, IT IS ORDERED, ADJUDGED
AND DECREED THAT: 1. All right, title and interest
in the Subject Property is forfeited and vested in the
United States of America, and shall be disposed of ac­
cording to law and pursuant to the stipulation and Order
defined above. 2. Pursuant to 21 U.S.C. A§ 853(n)(7) the
United States of America shall and is hereby deemed
to have clear title to the Subject Property. 3. The
United States Marshals Service, or its designee, shall
take possession of the Subject Property and dispose of
the same according to law, in accordance with 21 U.S.C.
A§ 853(h) and the terms of the Stipulation and Order.
4. After the sale of the Safe Deposit Diamonds, 30%
of the net proceeds shall be paid to the petitioner pur­
suant to the terms of the Stipulation and Order. 5. The
Clerk of the Court shall forward four certified copies
of the Order to Assistant United States Attorney

I

App. 29
Jonathan Cohen, Money Laundering and Asset Forfei­
ture Unit, United States Attorney’s Office, Southern
District of New York, One St. Andrew’s Plaza, New
York, New York 10007. SO ORDERED: (Signed by Sid­
ney H. Stein on 10/26/2015) [*** NOTE: The Clerk of
the Court has forwarded four certified copies of this Or­
der to AUSA Jonathan Cohen, by inter-office mail on
10/28/2015. ***] (bw) (Entered: 10/28/2015)

*• •

